U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Paul Xavier Espinoza v. United States, No. 20-8275
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 8, 2021,
and docketed on June 10, 2021. The Court called for a response to the petition on July 7, 2021.
The government’s response is now due, after one extension, on September 7, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 7, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners consents to this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8275
ESPINOZA, PAUL XAVIER
USA

AMY B. CLEARY
OFFICE OF THE FEDERAL PUBLIC DEFENDER
411 E. BONNEVILLE AVE.
STE. 250
LAS VEGAS, NV 89101
702-338-6577
AMY_CLEARY@FD.ORG

